CERTIFICATE OF COMPLIANCE
No.
Angelica Castañon, et al.,
Appellants,
v.
United States of America, et al.,
Appellees.
ON APPEAL FROM THE
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
As required by Supreme Court Rule 33.1(h), I certify that the Jurisdictional
Statement contains 8,974 words, including footnotes but excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d). In making this
certification, I have relied on the word count of the word-processing system used to
prepare this Brief.
Pursuant to 28 U.S.C. § 1746, I declare under penalty of perjury that the
foregoing is true and correct.
Executed on March 12, 2021.

/s/ Christopher J. Wright
Christopher J. Wright
Harris, Wiltshire & Grannis LLP
1919 M Street NW, Floor 8
Washington, DC 20036
(202) 730-1300
cwright@hwglaw.com
Counsel for Appellants

